<html>
<title> - MODERNIZING SOCIAL SECURITY'S INFORMATION TECHNOLOGY INFRASTRUCTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                     MODERNIZING SOCIAL SECURITY'S
                 INFORMATION TECHNOLOGY INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2016

                               __________

                          Serial No. 114-SS06

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        





                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-296                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
  
  
         


                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
DEVIN NUNES, California              CHARLES B. RANGEL, New York
PATRICK J. TIBERI, Ohio              JIM MCDERMOTT, Washington
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
CHARLES W. BOUSTANY, JR., Louisiana  RICHARD E. NEAL, Massachusetts
PETER J. ROSKAM, Illinois            XAVIER BECERRA, California
TOM PRICE, Georgia                   LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TODD YOUNG, Indiana                  LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     David Stewart, Staff Director

                   Nick Gwyn, Minority Chief of Staff

                                 ______

                    SUBCOMMITTEE ON SOCIAL SECURITY

                      SAM JOHNSON, Texas, Chairman

ROBERT J. DOLD, Illinois             XAVIER BECERRA, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
MIKE KELLY, Pennsylvania             JIM MCDERMOTT, Washington
JIM RENACCI, Ohio
TOM RICE, South Carolina


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 14, 2016 announcing the hearing.................     2

                               WITNESSES

Kimberly A. Byrd, Deputy Assistant Inspector General for Audit, 
  Financial Systems and Operations Audits, Office of the 
  Inspector General, Social Security Administration..............    51
William Hayes, Principal Engineer, Software Engineering 
  Institute, Carnegie Mellon University..........................    76
Robert Klopp, Deputy Commissioner of Systems, Chief Information 
  Officer, Social Security Administration........................     6
Valerie C. Melvin, Director, Information Management and 
  Technology Resources Issues, Government Accountability Office..    60
Richard E. Warsinskey, President, National Council of Social 
  Security Management Associations...............................    42

                        QUESTIONS FOR THE RECORD

Questions from The Honorable Sam Johnson, Chairman, Subcommittee 
  on Social Security, to Kimberly Byrd, Deputy Assistant 
  Inspector General for Audit, Financial Systems and Operations 
  Audits, Office of the Inspector General, Social Security 
  Administration.................................................   105
Questions from The Honorable Sam Johnson, Chairman, Subcommittee 
  on Social Security, to William Hayes, Principal Engineer, 
  Software Engineering Institute, Carnegie Mellon University.....   110
Questions from The Honorable Sam Johnson, Chairman, Subcommittee 
  on Social Security, to Robert Klopp, Deputy Commissioner of 
  Systems, Chief Information Officer, Social Security 
  Administration.................................................   114

                       SUBMISSIONS FOR THE RECORD

Cheryl Sullivan, BMC.............................................   119
Claire Bailey, Director of Federal, State and Local Mainframe 
  Solutions, Compuware...........................................   122


                     MODERNIZING SOCIAL SECURITY'S



                         INFORMATION TECHNOLOGY



                             INFRASTRUCTURE

                              ----------                              


                        THURSDAY, JULY 14, 2016

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room B-318, Rayburn House Office Building, Hon. Sam Johnson 
[Chairman of the Subcommittee] presiding.

    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Thursday, July 7, 2016
No. SS-06

                 Chairman Johnson Announces Hearing on

                     Modernizing Social Security's

                 Information Technology Infrastructure

    House Ways and Means Social Security Subcommittee Chairman Sam 
Johnson (R-TX), announced today that the Subcommittee will hold a 
hearing on ``Modernizing Social Security's Information Technology 
Infrastructure.'' The hearing will focus on the current state of the 
Social Security Administration's Information Technology (IT) 
infrastructure, the agency's IT modernization plan, and best practices 
for IT modernization, including oversight of Agile software 
development. The hearing will take place on Thursday, July 14, 2016, in 
Room B-318 of the Rayburn House Office Building, beginning at 10:00 
a.m.
      
    In view of the limited time to hear witnesses, oral testimony at 
this hearing will be from invited witnesses only. However, any 
individual or organization may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Thursday, July 28, 2016. For questions, or if you encounter 
technical problems, please call (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be submitted in 
a single document via email, provided in Word format and must not 
exceed a total of 10 pages. Witnesses and submitters are advised that 
the Committee relies on electronic submissions for printing the 
official hearing record.
      
    2. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. The name, 
company, address, telephone, and fax numbers of each witness must be 
included in the body of the email. Please exclude any personal 
identifiable information in the attached submission.

    3. Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at: 
http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman JOHNSON. Well, good morning and welcome to today's 
hearing on modernizing Social Security's information technology 
infrastructure. From seniors receiving Social Security benefits 
to young parents whose infants need Social Security numbers, 
Social Security's IT infrastructure touches on the lives of 
nearly every American. Hundreds of computer programs, thousands 
of servers, and millions of lines of computer code make up 
Social Security's IT. But even though it is so important, 
Social Security's IT hasn't kept up with the advances in 
technology.
    Today, when smartphones are common, Social Security still 
relies on computer code so outdated they don't even teach it in 
classrooms--unless you all teach some of it. So Social Security 
has to spend time and resources training workers in ancient 
computer languages, like COBOL, or rehire retirees to update 
its programs, because they are the only ones who know how.
    Social Security has new hardware, new computers and new 
data centers, but their software is out of date and hasn't been 
updated in years. Looking at a computer in a Social Security 
field office, you might think you have been transported back to 
the 1980s. Social Security still has many green screen 
programs. For those of you who may not remember, an example of 
a green screen is on the TVs. I can't tell you the last time I 
saw one of those.
    And, as we will hear today, this old technology makes it 
difficult to keep younger workers, who grew up using lots of 
technology. And, worse, there is a true cost to the old 
technology, because it takes Social Security employees longer 
than it should to do a simple task. That is time that can't be 
spent helping another claimant, processing earnings information 
on disability insurance beneficiaries or answering the phone.
    We will hear today that Social Security's employees lose 20 
minutes each day due to technology problems. With an agency as 
large as Social Security, this adds up quickly. And this wasted 
time costs Social Security nearly $200 million each year.
    For years, I have been sounding the alarm on the state of 
Social Security's outdated and aging IT. And the good news is 
Social Security has finally recognized it has a problem. In 
this year's President's budget, Social Security admitted the 
patchwork approach isn't working, and it is time to overhaul 
the entire system.
    Today, we will learn how Social Security plans to take on 
this massive program. It won't be easy, but Social Security has 
to get it right and the American people expect nothing less. 
But we will also hear today that Social Security's track record 
isn't always good when it comes to IT. Social Security has been 
trying for years to develop the Disability Case Processing 
System, DCPS, a single piece of software that will be used by 
State employees when deciding disability cases. The experience 
with DCPS has been rough for taxpayers and doesn't inspire all 
that much confidence.
    While it seems the project might be getting on track, you 
can't just ignore 300 million in taxpayer dollars spent on a 
failed approach before Social Security decided to just start 
over. Yet Social Security had no problem asking for $300 
million to redo its entire IT system without sharing a plan for 
how it was going to do it, the same amount that they spent on 
DCPS with nothing to show for it.
    The American people have the right to be skeptical. Trust 
is something that is earned, and it is earned by plans that can 
be followed, staying within a budget, and getting the job done 
on time, if not early. Make no mistake, Social Security must 
modernize its IT infrastructure, but they have to do it 
responsibly. This cannot be some runaway project with costs 
spiraling out of control or, a few years from now, starting 
over from scratch after spending hundreds of millions of 
dollars. Social Security has to get it right the first time.
    Thank you all for being here. I will now recognize Mr. 
Becerra for his opening statement.
    Mr. BECERRA. Mr. Chairman, thank you very much and thanks 
to the witnesses for being here.
    The Social Security Administration has an indispensable 
job, ensuring that all Americans get their earned Social 
Security benefits on time and in the correct amount. No agency 
serves more Americans with more critical services and 
activities than the Social Security Administration. One in four 
American families receives income from Social Security.
    Last year, SSA, the Social Security Administration, ensured 
that more than 60 million Americans were paid their earned 
Social Security benefits, that they completed more than 8 
million new applications, benefit applications, that they 
served more than 40 million in-person visitors and received 
over 66 million calls to over 1,200 field offices nationwide.
    SSA's IT was state of the art when it was developed. And 
SSA has over its history repeatedly harnessed technology to 
improve efficiency, productivity and customer service. But that 
was then. SSA had state-of-the-art systems in the 1970s, but 
today those legacy systems are increasingly obsolete. They are 
expensive to maintain, prone to breakdown, and difficult to 
reprogram.
    Modernizing SSA's IT infrastructure has been a challenge, 
as budgetary constraints have limited the agency's ability to 
invest beyond maintaining its current systems and implementing 
small upgrades to its existing infrastructure. Since 2010, the 
Social Security Administration's basic operating budget has 
been cut by 10 percent after adjusting for inflation. At the 
same time, the number of beneficiaries has continued to 
steadily increase, rising by 7 million people since 2010. These 
cuts have squeezed all aspects of the agency's operations, 
including its capacity to keep its IT up to date.
    I am glad that SSA is making a thoughtful assessment of its 
current IT infrastructure and determining what it will need to 
bring it up to date, but none of this can happen without 
resources. Without an additional investment from Congress 
dedicated to building a modern, agile, and cost-efficient 
infrastructure, SSA's systems will become even more slow, 
expensive to maintain, and at risk of catastrophic failure.
    I am glad one of our witnesses, Rick Warsinskey, is here 
today to tell us real-world effects of the agency's aging IT 
systems. Rick represents the managers of more than 1,200 Social 
Security field offices and teleservice centers. His workers 
report that they lose about 20 minutes a day to computer 
problems. It can take 10 minutes to restart a computer and get 
back online, sometimes while the beneficiary is standing there 
waiting.
    But despite these clear problems, just yesterday, the House 
Appropriations Committee approved a bill that cuts the agency's 
fiscal year 2017 operating budget below what it received this 
year in 2016. It cuts it by over $263 million, which means that 
it is a cut of about $1.2 billion for the agency that it 
needs--more that it needs to be able to do its work on time.
    Mr. Chairman, we all have work to do. SSA has important 
work to do. Congress has work to do to help them out as well. I 
hope that we recognize it as a chance for us to help the Social 
Security Administration do what it must for the tens of 
millions of people who rely on the agency and not only rely on 
it, but pay, pay taxes into Social Security, to make sure that 
they get the service and the work out of the agency that is 
necessary for these folks, these tens of millions of Americans 
who work very hard for this country, to get the benefits that 
they earned.
    And so it is time for us to work together with the Social 
Security Administration to make sure that they have the 
resources and the talent to provide all Americans who paid into 
the system the services that they deserve, the type of 
treatment they expect. And so when they call on that 1-800 
number or if they go visit an office, they will be treated with 
respect, they will be treated with dignity, because they will 
know that their government, our country is working for them.
    And so I am very glad that our witnesses are here with us 
today, I look forward to their testimony, and look forward, Mr. 
Chairman, to working with you and all our colleagues here in 
this Committee to make sure that we can get this done on behalf 
of the American people.
    With that, I will yield back the balance of my time.
    Chairman JOHNSON. Thank you, Mr. Becerra.
    You know, I have never been in a Social Security office 
that they haven't been friendly, kind, courteous and very 
efficient.
    As is customary, any Member is welcome to submit a 
statement to the hearing record.
    Before we move on to our testimony today, I want to remind 
our witnesses to please limit your oral statements to 5 
minutes.
    However, without objection, all of the written testimony 
will be made part of the hearing record.
    We have five witnesses today. Seated at the table are 
Robert Klopp, Deputy Commissioner of Systems, Chief Information 
Officer, Social Security Administration; Richard Warsinskey, 
President, National Council of Social Security Management 
Associations; Kim- 
berly Byrd, Deputy Assistant Inspector General 
for Audit, Financial Systems and Operations Audits, Office of 
the Inspector General, Social Security Administration; Valerie 
Melvin, Director, Information Management and Technology 
Resources Issues, Government Accountability Office; and William 
Hayes, Principal Engineer, Software Engineering Institute, 
Carnegie Mellon University.
    So, welcome, to all of you, thank you for being here.
    And, Mr. Klopp, please proceed.

  STATEMENT OF ROBERT KLOPP, DEPUTY COMMISSIONER OF SYSTEMS, 
   CHIEF INFORMATION OFFICER, SOCIAL SECURITY ADMINISTRATION

    Mr. KLOPP. Thank you, Chairman Johnson, Ranking Member 
Becerra, and Members of the Subcommittee.
    As I was introduced, I am Rob Klopp. I am the CIO and 
Deputy Commissioner of Systems at the Social Security 
Administration.
    I want to provide testimony to you directly from the plan 
that we put together and presented to you guys. It is a plan 
that I would like to put into the record right now, because I 
think it is really what we are going to try to do going 
forward. So if you could get the plans out that we provided to 
you and open to page 5, I am going to skip very quickly through 
what I think are the key parts of this plan. Page 5 basically 
describes the outcomes that we believe will be the result of IT 
modernization at Social Security.
    You know, it is important to think about IT modernization 
as really about technical outcomes. It is about modernizing 
technology and stuff like that. There are some really important 
outcomes from a modernization effort. We think that we can move 
to cloud computing and substantially reduce the cost to 
compute, the cost for storage and the ongoing cost of operating 
the agency.
    We think that there are some technical techniques that we 
can use, called service-oriented architectures, that will allow 
us to build software in a way that makes it easier to extend 
new policies and ideas. For example, some of the changes that 
came out of the balanced budget amendment, which Congress 
passed, we think we can more easily and more cost-effectively 
implement them.
    We think that we can build shared services so that what we 
do can be shared with other agencies of the government and also 
that we can share what some of those other agencies are doing 
if we have modern technology at the core.
    Finally, if we build analytics into the things that we 
build at a fundamental level, we will be able to be more data-
driven in our decisionmaking. We will also be much more 
responsive to the data-driven requests that come from you. 
There are critical technology outcomes that come from IT 
modernization. Probably most important to you is going to be 
cost reduction. But, if we go about modernizing IT 
infrastructure, it is really important that we not miss the 
opportunity to also modernize the business processes: The 
fundamental way that we engage with the citizens.
    Modernizing business processes probably adds a little bit 
of cost and expense to just modernizing the foundational IT, 
but I think we have to do that going forward. So, on page 5, 
you will also see that we believe if we modernize IT and we 
take advantage of this effort to actually change the way we do 
business that we have the ability to potentially reduce 
overpayments, that we have the ability to improve the automatic 
programmatic quality assurance systems we have in place that 
improve the quality of the services we deliver, that, as was 
already noted, we can improve the productivity of the employees 
to the benefit of the citizens, you know, by reducing wait 
times and stuff like that. We believe that, very importantly, 
we can do more self-service applications so that citizens can 
engage with us more directly and not have to come to field 
offices in the first place.
    We have giant processing centers in Social Security and, to 
a large extent, the processing centers are in place today to 
handle all of the things that our legacy software doesn't 
handle. So every edge case, every outlier that pops up in the 
system, ends up going to these processing centers and is 
handled manually. We believe that with IT modernization, we can 
eliminate some of that manual processing completely.
    And, finally, we think we can apply technology in order to 
actually help us with some of the decisions that we have to 
make, and that will allow us to be more effective at things 
like adjudications.
    So, importantly, there are outcomes that come out of IT 
modernization, some of which are technical, but, to a large 
extent, the more important ones have to do with business 
outcomes. And it is important that we don't miss the business 
outcomes because we title this IT modernization, which might 
otherwise imply just technology.
    If you skip to the next page on the scope of what we want 
to achieve, you can see that we are going to go after the heart 
of the systems that are in the Social Security Administration.
    The scope includes a complete rewrite of title II systems; 
of title XVI systems; of our notices application, which is how 
we currently communicate with the citizens of the country; 
enumerations is our application that we actually use to create 
Social Security cards; and earnings, which is how we keep track 
of the money that people have contributed to help determine how 
much their benefits might be. We think that we can modernize 
these five applications as the scope of modernization and 
fundamentally change the way we engage with citizens. 
Importantly, we also want to modernize and reduce some of the 
costs of our back office. So, in our plan is an attempt to 
actually take our email infrastructure and move it out of our 
in-house data centers into the cloud for further cost 
reductions.
    Page 7, I think, is what is most important and probably the 
newest part of this plan, and that is that we built a roadmap 
that basically addresses how we think we are going to go about 
modernizing these five applications. You know, it would 
probably take more than I can get through in 5 minutes to talk 
about this stuff, but I want you to know that the work we put 
into coming up with these estimates, you know, when we walked 
out of the room, people looked at me and said, this is probably 
the best that we have ever done as an agency in trying to 
estimate in advance what the GAO would call a rough order of 
magnitude, which is all that is expected at this stage. So we 
think that these estimates are extremely accurate, and we feel 
really, really confident that we can actually do what is on 
this chart.
    Slide 8 basically talks about our approach, which is 
about----
    Chairman JOHNSON. Can you tie it down? Your time has 
expired already.
    Mr. KLOPP. Okay.
    Chairman JOHNSON. Go ahead.
    Mr. KLOPP. Oh, I'm sorry. So I just want to say we are 
going to approach this with Agile methods, and I think you know 
something about that. Agile methods are really the key to being 
able to do this in a completely different way than how we 
addressed DCPS before, and that is why we think we will have 
different results.
    And then, finally, I just want to say that Agile creates 
some interesting challenges in the way you implement oversight, 
and we believe that in this plan we have provided mechanisms to 
allow that oversight to happen, even though the plan will be 
agile. The mechanisms will help you guys keep on top of us to 
make sure this is not another DCPS experience. I will just wrap 
up by saying: We think we are going to approach this 
fundamentally differently than the DCPS experience. We think we 
are proving through some other things that we are doing that we 
can effect these approaches and that, you know, we deserve your 
confidence because of these things we have done in the last 
year to prove this, that we can actually move forward and make 
this happen.
    [The submission of Mr. Klopp follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    


                                 
[The prepared statement of Mr. Klopp follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    

                                 
    Chairman JOHNSON. Thank you for your testimony.
    Ms. Byrd.
    Okay.
    Mr. Warsinskey, would you like to testify, please? You are 
recognized.

STATEMENT OF RICHARD E. WARSINSKEY, PRESIDENT, NATIONAL COUNCIL 
           OF SOCIAL SECURITY MANAGEMENT ASSOCIATIONS

    Mr. WARSINSKEY. Chairman Johnson, Ranking Member Becerra 
and Members of the Subcommittee, my name is Rick Warsinskey, 
President of the National Council of Social Security Management 
Associations. Our organization represents field office and 
teleservice center management nationwide. I appreciate the 
opportunity to testify today.
    My testimony will focus on why modernizing SSA's IT 
infrastructure is essential from the perspective of over 60,000 
employees and, even more importantly, to the customers we 
serve. Ask any SSA employee what their number one concern is, 
and most will tell you it is the frustration they face getting 
their job done due to our slow system. Daily, we wait as our 
computers crawl from one system's window to another. Around 
noon Eastern time, our system reaches peak usage, as almost all 
offices are open to serve the public. Users watch the spinning 
wheel as programs and screens attempt to load. Valuable time is 
lost which should be used to assist customers or address 
backlogs. Based on our recent survey, we believe this costs the 
agency upwards of $200 million per year in lost productivity.
    We can demonstrate the degradation of SSA's systems by 
analyzing data speed tests. We surveyed our offices and found 
that these tests measured a median download speed of 2.87 
Megabits per second and an upload speed of .25 Megabits per 
second. This speed is slower than what we measured last year. 
In comparison, Internet providers typically provide over 20 
times this speed in your home. This degradation in data speed 
supports overwhelming feedback that our system is slowing down. 
Our customer service and productivity are not only dependent on 
reliable systems access but also on efficient programs. SSA 
programs are becoming more complex, and experiencing more 
malfunctions. Our computers regularly become nonresponsive, 
applications inaccessible, requiring a system reboot. It can 
take up to 10 minutes to restart a computer to get back online.
    We strongly support resources for modernizing SSA's code 
and rewriting its programs. SSA's systems require new 
architecture. We understand modernizing SSA's computer systems 
will require resources and time. However, failure to address 
these critical concerns will delay the inevitable and costs 
will only increase. In the meantime, severe disruptions of 
service will intensify as the system further degrades. Our 
agency touches every American. We maintain billions of records, 
paying about $1 trillion a year. Payments must be made 
accurately to ensure tax dollars are not wasted.
    The current inefficient, outdated system cannot keep pace 
with the services SSA must deliver each day, costing us 
millions of dollars. We acknowledge there are budget challenges 
to addressing SSA's IT infrastructure needs, especially 
considering SSA's increasing workloads, which include a record 
high hearings backlog of over 1.1 million cases waiting for a 
decision. These cases represent vulnerable citizens facing the 
possibility of homelessness and severe health deterioration, 
often without the means to pay for care. SSA's program service 
centers have a near record high pending backlog of over 2.8 
million cases, with an average age of 4 months. These centers 
are responsible for workloads that usually require manual 
processing due to limitations in SSA's software.
    The American public deserves an SSA with adequate resources 
to support the agency and its systems. We recognize budget 
dollars are limited. However, we strongly believe dedicated and 
sustained resources for the modernization of SSA's IT 
infrastructure are necessary to ensure the agency can run 
efficiently, saving tax dollars. The longer we delay addressing 
these issues, the more severe disruptions will occur, risking 
major systems outages.
    Thank you again for this opportunity to testify. I would 
welcome any questions you have.
    [The prepared statement of Mr. Warsinskey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    

                                 
    Chairman JOHNSON. Thank you, sir.
    You know we built two brand new computer centers not too 
long ago. That was supposed to solve all your problems.
    Thank you. Ms. Byrd, you are recognized.

   STATEMENT OF KIMBERLY A. BYRD, DEPUTY ASSISTANT INSPECTOR 
             GENERAL FOR AUDIT, FINANCIAL SYSTEMS 
AND OPERATIONS AUDITS, OFFICE OF THE INSPECTOR GENERAL, SOCIAL 
                    SECURITY ADMINISTRATION

    Ms. BYRD. Good morning, Chairman Johnson, Ranking Member 
Becerra, and Members of the Subcommittee. Thank you for the 
invitation to testify today. SSA administers programs that 
result in payments of $2.5 billion per day, and holds sensitive 
data for more than 300 million people. Given SSA's increasing 
service and data storage responsibilities, the agency must 
modernize its IT infrastructure. It is a significant challenge 
to upgrade the IT systems that an organization as vast as SSA 
needs to conduct business. However, the agency must make IT 
modernization a top priority.
    The need for long-term IT planning has been a concern at 
SSA for many years. As far back as 1982, SSA announced 
aggressive plans to restructure and upgrade its systems. At the 
time, the agency told Congress that, without major IT 
improvement, SSA could suffer a disruption of services which 
are critical for millions of Americans.
    Despite upgrading several systems, SSA has yet to tackle 
some of its major IT projects, such as replacing its legacy 
programming code and databases. Specifically, SSA continues to 
rely on decades-old applications to process core workloads, 
such as retirement and disability claims. Many of the agency's 
applications run on COBOL, a programming code first developed 
more than 55 years ago. Further, SSA's workforce, while 
proficient and experienced, is aging. Thus, institutional 
knowledge of older technologies is diminishing due to 
retirement. Modernization is critical, because SSA's next 
generation of employees will expect to work with current, 
mainstream technologies.
    In its Information Resources Management Strategic Plan, SSA 
outlines general multi-year efforts to modernize data so it 
exists in forms that are widely used today; rewrites business 
applications with modern coding so those applications can 
interact with SSA's online and mobile service; and moves 
servers to environments like the cloud, that could increase 
efficiency. All of these efforts are worthwhile. But going 
forward, SSA should describe specifically how and when it will 
bring these ideas to fruition.
    Long-term strategic planning is critical to any significant 
IT project. For example, the Disability Case Processing System, 
or DCPS, is one of SSA's largest active IT investments. SSA 
began planning this project in 2008. During development, DCPS 
has incurred cost overruns and schedule delays. After 
development resulted in limited functionality and user 
concerns, SSA reset the project last year and changed its 
approach. The agency moved DCPS to an Agile environment, which 
is expected to deliver software updates incrementally. Agile 
practices are relatively new to SSA. Implementing them on a 
project as complex as DCPS could introduce additional risks.
    At the end of fiscal year 2015, SSA reported it had spent 
more than $350 million on DCPS. Going forward, the project 
requires diligent oversight and continued user involvement. 
Also, any IT modernization plan should address SSA system 
security. In our most recent FISMA report, we identified a 
number of weaknesses that may limit SSA's ability to adequately 
protect its systems. The risk and severity of these weaknesses 
met OMB's definition of a significant deficiency in internal 
controls, a conclusion that we have reached in prior FISMA 
reports. SSA needs to address these weaknesses to protect its 
information systems, just as the agency works to ensure the 
integrity of its benefit programs.
    To conclude, SSA needs a detailed IT plan that clearly 
outlines how it will modernize its databases, applications, and 
infrastructure, so agency employees can work effectively and 
SSA customers can receive timely, accurate services. Of course, 
we will continue to monitor these issues closely and work with 
SSA and the Subcommittee.
    Thank you again for the invitation to testify, and I am 
very happy to answer any questions.
    [The prepared statement of Ms. Byrd follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    


                                 
    Chairman JOHNSON. Thank you, ma'am.
    Ms. Melvin, welcome. Please proceed.

     STATEMENT OF VALERIE C. MELVIN, DIRECTOR, INFORMATION 
    MANAGEMENT AND TECHNOLOGY RESOURCES ISSUES, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. MELVIN. Good morning, Chairman Johnson, Ranking Member 
Becerra, and Members of the Subcommittee.
    Thank you for inviting me to testify on modernizing SSA's 
information technology. As you know, the agency relies heavily 
on IT resources to accomplish its mission, and as has been 
emphasized, SSA's IT environment is aging, with the agency 
reporting that some of its systems are more than 30 years old.
    Over the years, SSA has undertaken various projects aimed 
at updating and improving its systems and infrastructure and, 
as noted today, it recently announced a new plan to pursue an 
agencywide modernization initiative. Our prior reports on SSA's 
IT identify numerous challenges that impeded the agency's 
ability to effectively manage and modernize its IT, and at your 
request today, my testimony summarizes results from those 
reports. Further, in anticipation of the new modernization 
initiative, the testimony highlights selected practices that we 
have identified as essential to effectively planning for and 
managing modernization efforts.
    Overall, our prior work identified weaknesses in SSA's 
systems, development practices, IT governance, requirements 
management and strategic planning, among other areas. For 
example, we previously noted that the agency had proceeded with 
implementing an earlier disability system without consistently 
applying established procedures to guide the systems 
development and without conducting adequate testing to evaluate 
the performance of all system components collectively. 
Additionally, the agency's IT modernization approach had not 
included an updated IT strategic plan to guide its efforts. 
Weaknesses such as these hindered SSA's ability to successfully 
deliver the new capabilities.
    We made numerous recommendations to address the weaknesses 
we identified, and the agency agreed with some, but not all of 
them. Overall, the agency has continued to be challenged in its 
efforts and currently faces increasing costs to operate and 
maintain its at-risk legacy systems.
    Our work has shown that successfully acquiring and 
modernizing IT depends on Federal agencies, including SSA, 
having effective management and oversight processes in place. 
Otherwise, investments frequently fail, incur cost overruns and 
schedule slippages, or contribute little to the missions-
related outcomes.
    With this in mind, we have identified a set of essential 
and complementary management disciplines that provide a sound 
foundation to support IT modernization efforts. These include, 
among others, strategic planning to define what an organization 
seeks to accomplish and how it will achieve the desired 
results, IT investment management that includes an investment 
board and effective investment oversight, systems development 
and acquisition practices that include defining the 
requirements, managing project risks, and reliably estimating 
costs, and leadership for driving change, providing oversight 
and ensuring accountability for results.
    Given the longstanding challenges with its IT management 
and modernizations, it is important for SSA to have in place a 
clearly established, rigorous and disciplined approach for its 
latest efforts to modernize its IT. The management disciplines 
noted provide a sound foundation for doing so. Otherwise, 
challenges like those that SSA experienced in its past 
initiatives could continue to be an impediment to the agency 
achieving the more modernized IT environment necessary to 
support its service delivery mission.
    This concludes my oral statement, and I would be pleased to 
respond to your questions.
    [The prepared statement of Ms. Melvin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman JOHNSON. Thank you, ma'am.
    Mr. Hayes, welcome. You may proceed.

   STATEMENT OF WILLIAM HAYES, PRINCIPAL ENGINEER, SOFTWARE 
       ENGINEERING INSTITUTE, CARNEGIE MELLON UNIVERSITY

    Mr. HAYES. Chairman Johnson, Ranking Member Becerra, 
Members of the Subcommittee, thank you for the opportunity to 
address you today.
    My name is Will Hayes and I am a member of a research team 
at the Software Engineering Institute, a federally funded 
research and development center operated by Carnegie Mellon 
University. For over 7 years, we have been working with major 
software-intensive programs across the government, where a 
great deal of experience is accumulating about Agile. My 
testimony today will focus not on the Social Security 
Administration but on what we at the Software Engineering 
Institute have learned about Agile development in government 
settings. Our research encompasses both successes and failures 
in applying Agile approaches. In our work as a federally funded 
research and development center, it is our goal to help others 
benefit from this experience base.
    It bears mentioning at the outset, Agile cannot solve all 
your IT transformation problems. As you may know, Agile 
software development is typified by small, cross-functional 
teams working in short iterations to deliver software 
capabilities incrementally. Our research in large programs 
indicates that there are several factors that are essential to 
successful application of Agile development at scale: Effective 
communication between leadership and developers; alignment on 
strategy across teams and roles; and a workforce experienced in 
the disciplined application of software engineering methods, 
such as architectural analysis, cyber security practices, and 
building sustainable systems, among other things.
    Make no mistake, to consistently deliver working software 
on a short timeframe and to do this over the course of months 
or years requires a tremendous amount of discipline and ongoing 
planning. For those charged with oversight responsibilities, we 
must recognize that Agile at scale is different from 
traditional approaches, and this process requires a different 
approach to oversight.
    Agile methodologies place a premium on consistent use of 
short iterations, with stable staffing dedicated to a single 
stream of technical work. This new cadence offers more 
oversight opportunity but with different measures of success. 
For example, short-term deviations in cost and schedule are 
much less likely to occur under such a regime. Leading 
indicators of performance that rely strictly on cost and 
schedule information will not serve us the way they have in the 
past. We will need to understand performance in terms of 
delivered value rather than resources consumed.
    In Agile, there is a strong emphasis on uncovering user 
needs for the system through collaborative interaction. Given 
this focus, we have the opportunity to assess the quality of 
the software products based on how well they support the 
mission of the user base. This focus on quality in terms of 
user value is seen by many to be superior to an exclusive focus 
on software defects and technical data. Agile moves the focus 
away from reliance on detailed and comprehensive specifications 
as the primary way of assessing the technical challenge to be 
solved. Incremental development allows teams to hone their 
understanding of real user needs as the system is implemented 
in waves.
    Agile development emphasizes full-resolution visibility 
into near-term work and a less detailed focus on the work to be 
done later. This approach to managing the inevitable change in 
what we demand of our IT systems when implemented with strong 
leadership and a well-considered roadmap has helped government 
programs to deliver systems that are better suited to their 
intended use.
    There are a number of potential challenges to using Agile 
approaches in government settings that still remain. First, it 
is not yet clear how we will build the capacity for government 
personnel to interact more frequently with developers. Our 
Federal workforce must continue to accomplish more each year 
with limited ability to add resources.
    Second, government personnel overseeing software systems 
must be able to consider broad-reaching impacts of their 
technical strategy over the long term. A focus on short-term 
technical goals to the exclusion of a sense of building for the 
future can be a destructive force. This can inappropriately 
constrain the budgetary decisions we must make.
    Last, we must continue to battle the recurring software 
challenges that have been pervasive for decades. This includes 
managing technical debt and making timely modernization 
investments. We have a very long tradition of deferred 
maintenance to overcome. Just as we might worry about the 
condition of roads and bridges in our country, we need to be 
mindful of the work we defer in our software systems.
    In conclusion, I would like to suggest two broad focus 
areas for government on these matters: First, we need to start 
asking different questions about software systems in which we 
invest. We need to focus on what the software system enables 
and how the work supported by the system is improved by the 
capabilities we deploy. Second, a focused workforce development 
effort is needed to develop the skills necessary to utilize 
these new methodologies.
    It is an honor to participate in this process, and I will 
be happy to answer any questions you have. Thank you.
    [The prepared statement of Mr. Hayes follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman JOHNSON. Thank you, sir.
    It seems like we should have gone over all those things 
when we built the new centers, right?
    Mr. Klopp, the President's budget requested $300 million to 
modernize Social Security, and after asking for months for a 
plan, this week, Social Security finally provided something to 
the Congress. Given that Social Security already wasted $300 
million on the Disability Case Processing System before 
starting over--money taxpayers can't get back--I want to ask 
you, are you confident that the proposed $300 million will 
cover the entire modernization project, as the budget claims?
    Mr. KLOPP. First, I guess I would just get out of the way 
the fact that the DCPS stuff and the $300 million that was 
spent before was spent before I got here, all right.
    What I did was, about 9 months ago, started the agency on a 
path to build the plan which is now in front of you, and as you 
can imagine, building a plan as comprehensive as a plan to 
modernize all of the IT infrastructure, 9 months is not a bad 
effort. The plan has been in continuous improvement. And, you 
know, frankly, we have briefed your staff continuously over the 
course of that 9 months, so there is really very little in the 
plan that was new and a surprise. What was new was the roadmap 
and cost model that we built in the plan, and so I am hoping 
that later on we will have some questions that will let me go 
into that in more detail. What I will tell you is that the cost 
model also has been built up iteratively over the course of the 
last 9 months.
    We believe, at this stage, that the model we have put 
together and the commitments that are implied by the roadmap 
that is in the plan are extremely high quality. We worked very 
hard to create what GSA would call a rough order of magnitude 
estimate that is extremely high fidelity. So we think we can do 
what is in the plan. We believe the effort that we put into 
building up those cost models is a level of effort that is not 
usually seen in the government in building a rough order of 
magnitude, and I stand behind it.
    Chairman JOHNSON. Well, are you protecting taxpayer 
dollars, is what the question is, and are you going to stay on 
budget?
    Mr. KLOPP. You know, I think we are going to stay on 
budget. I think, you know, one of the things that Mr. Hayes 
said that I think is really important to keep in mind is that, 
in this new Agile world, what we focus on is trying to deliver 
value every time we go through an iteration, an Agile 
iteration. And so we think that the Agile process is going to 
allow you to look at the things that we have in the backlog, 
the amount of money that we are spending as a run rate and, at 
a very regular interval, be able to determine whether or not we 
are adding the value with these increments that we claim we are 
adding.
    I think that Agile is less about defining an end point in 
advance and driving to that end point and then declaring that 
we have hit something on time and on budget. So we are going to 
use Agile. We are going to expect you to watch over us like a 
hawk. And we think that we will be able to consistently deliver 
value through this entire plan.
    Chairman JOHNSON. Let me ask you a little different 
question. You know, you are a political appointee and that 
means, in January, are you going to leave Social Security?
    Mr. KLOPP. We will see, alright? I don't have a long-term 
contract, alright?
    Chairman JOHNSON. What are you doing to make sure that this 
project stays on track once you leave?
    Mr. KLOPP. We think we have detailed plans that we are 
going to put in place, but right now, we are at the stage where 
the detailed plans are highly dependent on the $300 million 
request we have for additional funding. If we don't get the 
$300 million, I think that the plan really completely unravels. 
We are undergoing some pretty severe budget cuts, and it is 
going to impact IT I think more than anywhere else. So I don't 
see much opportunity for us to take on IT modernization without 
the additional funding.
    Chairman JOHNSON. Thank you.
    Ms. Byrd and Ms. Melvin, you have seen the impact of 
turnover in Social Security, what else should be done to make 
sure that taxpayer dollars are not wasted? Either one of you.
    Ms. BYRD. I will go first. From the OIG perspective, what 
we really want is a long-term plan. We can't have an annual 
plan that then goes away. As I mentioned in my oral testimony, 
SSA has gone back 25 years in saying that this must happen, and 
we are now here again today discussing this modernization 
effort.
    So what we would like to see is a very detailed plan going 
forward that is sustained beyond 1 year, beyond one 
Administration.
    Chairman JOHNSON. Well, you know, when we built those two 
processing buildings, they told us that was the end of the 
problem, and it hasn't seemed to happen. I am out of time. I am 
going to recognize Mr. Becerra.
    Thank you for your comments.
    Mr. BECERRA. Mr. Chairman, thank you for this hearing, and 
I hope we are able to follow it up with more, because I think 
it has become very clear that we need to do something, but we 
have to make sure that whatever that something is, it is going 
to work.
    May I suggest, Mr. Chairman--we were just chatting a second 
ago--that we try to bring together the Inspector General's 
Office and the GAO's Office, who are watchdogs, sit them down 
with 
Mr. Klopp and his folks, and that we, the Members of Congress, 
those of us who sit on this Committee of jurisdiction, we get 
to sit with you all to hear what is going on, because if you 
are going to ask for the money, I think we want to have a sense 
that it is going to work.
    And, as Ms. Byrd just said, this is a long-term project. 
And as Mr. Klopp just said, you are going to need the money. 
You can't do a long-term project without knowing you have a 
stable source of funding to help it happen. And I think what 
you are probably going to hear from this dais is that people 
want to know if you are going to get the money, there will be a 
product that works at the end.
    And I don't think we have much more time to wait or waste, 
right, because my understanding is it is getting worse every 
day. You are running out of broadband. Your folks are taking 
longer and longer to access information, and you are getting 
more and more people coming through the doors of Social 
Security offices. And so I think it becomes really important 
for us to work on--it is almost like diving out of the plane 
together. We all have to trust that we will all know how to 
pull each other's parachute string at the right time, and we 
can't afford--failure is not an option if we are all hanging 
together.
    I think it is also going to be important, as Mr. Hayes has 
testified, to have someone from the outside, especially those 
who are doing this and have done it well, to instruct us, 
because sometimes we get in our shells and don't recognize all 
the best technologies that are out there or some of the 
failures and we will have someone that can inform us.
    Ms. Byrd and Ms. Melvin, do you think your offices would be 
willing, if the Chairman and Members on this Committee were 
interested, to sit down, not necessarily having to do a hearing 
but just to sit down, to have a working group, that your 
offices would be willing to participate in that?
    Ms. BYRD. Absolutely.
    Ms. MELVIN. Yes, definitely, we would.
    Mr. BECERRA. Mr. Klopp, I don't know if you can speak for 
everyone at Social Security, but would you be interested in 
participating in something like that? Would your folks at SSA 
sign off on allowing you to have additional meetings with 
Members of Congress who are interested in following up with you 
on this?
    Mr. KLOPP. Absolutely. I think we have already tried to 
engage with your staff much more effectively than maybe has 
been going on in the past.
    Mr. BECERRA. Mr. Warsinskey, do you think that would be 
something that the folks who actually have to do this on the 
ground that you represent would be supportive of?
    Mr. WARSINSKEY. Very much so. I think that is the key, with 
everyone getting together and being on the same page and going 
in the same direction.
    Mr. BECERRA. And, Mr. Hayes, I am assuming that you think 
it is better to look from the inside versus from the outside at 
how this is happening, because all of us, whether we are in the 
Federal Government or not, are going to deal with Social 
Security at some point in our lives.
    Mr. HAYES. Yes, sir.
    Mr. BECERRA. So, Mr. Chairman, I would really urge us to 
see if we can sit down, whatever all of you think is a good 
group, to just try to follow this up, because I think the 
Chairman's admonition is absolutely correct: We can't afford to 
have someone come up here and say, you need the resources, 
whether it is to have those new buildings in which we are going 
to house a lot of the IT capabilities, move forward, then all 
of a sudden find that it is just not cutting it.
    And I hope that what we will do is we will get a clear 
sense of the path on the budget numbers that you really need, 
because, well, as you just saw, yesterday the Appropriations 
Committee actually cut SSA's budget and, as I think, Mr. Klopp, 
you mentioned, it would be impossible to move forward on any IT 
improvement if your budget is cut. And so I think people are 
going to demand some real precise numbers to feel comfortable 
about allocating the resources for this without taking it from 
another very important aspect of Social Security 
Administration's work. The last thing we want to do is take it 
from Peter to give it to Paul.
    Is there something, Mr. Warsinskey, that we should know 
that the folks, the frontline folks would like Members of 
Congress to know, in terms of how we could do this and do it 
right?
    Mr. WARSINSKEY. I think, as I was saying in my testimony, 
our biggest concern right now is that, as we interview the 
public, every member that walks in, they are waiting longer. 
Our interviews are taking longer. Every part of our work is 
just--there is a frustration building, because, especially in 
the middle of the day where you are just waiting for things to 
move. The Social Security employees are really under the gun to 
move, to use every second they can. They need to use every 
second. It is very frustrating when they can't use the time 
they have to do something.
    Mr. BECERRA. I appreciate that.
    Mr. Chairman, thank you for holding this hearing.
    Thank you to all the witnesses for their testimony.
    Chairman JOHNSON. Thank you, sir.
    Mr. Smith, you are recognized.
    Mr. SMITH. Thank you, Mr. Chairman.
    And thank you to our witnesses.
    Mr. Klopp, how far along would you say you are in this 
plan? I mean, there was the assertion made previously that some 
of the documentation and so forth is brand new. How far along 
would you say you are?
    Mr. KLOPP. I have been at SSA for about 18 months, and it 
is so apparent the minute you get there that IT modernization 
is almost an existential problem. About 37 percent of our staff 
will be eligible to retire in the next 5 years. So IT 
modernization is something we jumped on right away.
    What we have done in the last 18 months is to start the 
cultural change to get our heads wrapped around Agile. As Mr. 
Hayes points out, the workforce, cultural change like that is 
critically important. But we also started working on the 
technology.
    So we are now at a point where we are rolling out our first 
production applications in the cloud. We are building 
applications using very modern software languages like Node.js, 
and we are using Agile in an agile way. I think we are doing 
well at that. So a lot of the 18 months has been preparation to 
be in a position where we could actually execute on the plan. 
The plan itself has really probably grown up I am going to say 
in the last 8 months, and that basically started when we asked 
ourselves, what would we do if we were going to completely 
rewrite systems and engage customers in a completely different 
way? So we started a project that we call Customer Connect.
    And, really, the major upgrade that I mentioned, the 
roadmap and costing, was only--we could only really do that, 
without just making really big ridiculous swags, in the last 
few weeks as the Customer Connect team developed for us 
descriptions of the business processes that drive the whole 
agency.
    So the answer I think is we have a toehold. We have a 
beachhead. The workforce has learned enough to be able to move 
forward on this thing. And, really, we are just waiting for the 
funding.
    Mr. SMITH. So would you say the funding is the largest 
obstacle?
    Mr. KLOPP. It is. We have to have the funding.
    Mr. SMITH. So, once you get the funding, do you see any 
other obstacles changing or evolving along the way?
    Mr. KLOPP. You know, it is never going to be perfect, 
right? But, we think that we can do this. The other thing I 
think that is important is we have turned DCPS around. We have 
turned it around by using all these Agile modern methods. And 
it is really DCPS and our ability to develop code in DCPS that 
has become the yardstick that allows us to come up with these 
estimates.
    We believe, now knowing the kind of velocity that we can 
get out of programmers in a modern environment and being able 
to relate the business problems we are solving in DCPS to the 
business problems that we have to solve if we modernize title 
II, that we can get this rough order of magnitude and say, 
yeah, it looks like about the same thing.
    So I actually don't believe that there are technical 
obstacles; I just think we have to get on with it.
    Mr. SMITH. You know, in the Federal Government, as it 
relates to dollars being spent and so forth, there are 
oftentimes a lot of boxes that need to be checked. Oftentimes, 
those don't have anything to do with quality or efficiency.
    Do you feel that you have the flexibility, that there is 
enough flexibility in the system or, you know, in the 
surroundings, that there is enough flexibility to get the job 
done?
    Mr. KLOPP. That is really a very interesting question. I 
think you can actually see a little bit of tension at the table 
here between the Agile side of the world, which is really sort 
of about get on with it, manage things in an iterative way, 
work very hard to make sure you are adding value with each 
iteration, as opposed to, you know, the counterview, which is, 
we have to have detailed plans that lay everything out several 
years in advance and how we have to work to these detailed 
plans.
    Agile is about agility. It is not about prescriptive plans. 
And so what we have done is engage the IG and OMB and start 
trying to find a way to work in this agile way to provide all 
the value that Agile provides and still provide the kind of 
management oversight on top of this thing to make sure that we 
are delivering value as we go.
    But in the same way that it requires me to retrain my 
programming staff in how to deal with Agile and to deal with 
some of the cultural concepts that Mr. Hayes suggested, I think 
that also some of those cultural changes are going to have to 
impact the way we provide oversight on these things, and it is 
going to impact folks like GAO and, you know, the Inspector 
General's Office.
    Mr. SMITH. All right.
    Thank you, Mr. Chairman. I yield back.
    Chairman JOHNSON. Thank you.
    Mr. Kelly, you are recognized.
    Mr. KELLY. Thank you, Chairman.
    And thank everybody for being here.
    Mr. Hayes, I am from right above Pittsburgh, so I know the 
wonderful work that you have done. I am from the private 
sector, and just as a lead into it, not only you but all of us 
are going to find out in January if we are still here. So it 
doesn't really--we are all in temporary service.
    Coming from the private sector, though--and this is 
something I have watched now for the 5 years I have been here--
we are always trying to find out who to blame for things not 
working right. But in the private sector, in the business I 
have been in my whole life, I would have the folks that I work 
with come to me and say: ``Hey, there is a new machine we have 
to get''--I am an automobile dealer--``we need to get this new 
paint room.'' And I would say: ``How much does it cost?''
    And they would say: ``$250,000.''
    And I would say: ``Well, how are we going to pay for it?''
    They would say, ``Well, there is a great loan program, or 
you can lease it.''
    I said, ``No, no, how are we going to make the payments?'' 
Because if we don't have enough business to cover it, it 
doesn't make sense. So I would never buy anything--if it didn't 
kill more than it ate, it couldn't come in the store.
    The problem that you face is huge, because without more 
people participating--I am talking about now the labor rate 
participation. I am not talking about unemployment, because 
people looking for jobs and not finding a job are the only ones 
considered unemployed. The people that don't have any hope and 
aren't even looking for a job aren't considered in the market 
anymore.
    But the real elephant in the room is not the program that 
you are trying to put forward. The real elephant in the room is 
the fact that we don't have enough revenue to continue to build 
a business model that would make sense in the private sector. 
Nobody in the private sector would sit there and say: ``You 
know what? This is a new program I am going to institute. Let's 
go ahead with it.'' Because the next question is, who's going 
to pay for it? My understanding--and this is from signing 
payroll twice a month--6.2 percent from the person that is out 
there working, 6.2 percent matched by the people who pay him or 
her, 12.4 percent out of every paycheck up to about $118,000.
    If we don't get more people back to work, if we don't have 
a dynamic and robust economy, all of this talk that we are 
having is just that. It is just talk. You have my--I think you 
have around 65,000 people working in Social Security right now. 
You need a lot of money to update. You need a lot of money to 
continue to grow. In our business, if we stop spending, we are 
going to die. We have to constantly move, all the time, move 
up, move up, ratchet up. What you are doing is making more 
people more effective, more efficient through technology. That 
is the way you fix it. The question is, how do you pay for it?
    I think too often we worry here about the political 
ramifications of, who are we going to blame? Who are we going 
to blame for us not being able to get there? First of all, 
Social Security is a business. We have to have more money 
coming in than going out. It is just that simple. These are not 
hard things to figure out. Then the question becomes, if we are 
going to have this constant conflict all the time and it is 
always a tit for tat and telling us who is responsible for it 
not failing, the reason it is not working is because we don't 
have an economy that is functioning right now. You can't do a 
darn thing about that. We can through policy. We can look at 
things and say, why aren't we growing? Why aren't we fulfilling 
our full potential? The answer in most cases is the private 
sector can't continue under the heavy burden of taxation and 
regulation and then being held responsible for not providing 
enough revenue to run the business. See, I look at it just that 
simple. And all the things you are trying to do are wonderful. 
But if we can't afford to pay for them, they never get done. So 
I think I would rather be looking at--I want to sit down and 
talk with you. I want to hear from you how you could fix this, 
what you have to do to update, what you have to do to 
modernize. As you look at the growing number of people on 
Social Security, we have to make sure that we fulfill that 
promise to people, but we also have to make sure the model 
isn't a flawed model that is not sustainable.
    Too many programs right now are unsustainable. They were 
unsustainable from their very concept. From the time they went 
into effect, they couldn't be held on that long. We knew we 
couldn't do it. But you know what, if we could just get through 
the next election, then we would work on it again.
    So I appreciate everything you are doing. I mean this 
sincerely. If anybody gives you a hard time--listen, you are 
working for the same people we work for, that is hard-working, 
American taxpayers. And they expect the flat level best from us 
every single day we come to work. So I don't want to blame you 
for anything. I want to work with you. I want to finally do it. 
But you know what? What you need to demand from us is not just 
more money to operate but a stronger economy that can fund it, 
because I know where the money comes from. Every single penny 
comes from a hard-working, American taxpayer. It is in their 
paycheck. It is matched by their employer, but it only matters 
if they are working. It only matters if their wages are rising. 
All of the rest of this, we are just chasing ourselves around 
about the real problem.
    The real problem in this country right now is an economy 
that is not growing. With the assets that we have and the 
opportunities that we have facing us right now, if we really 
want to make America great again, then we have to have policies 
that allow America to be great again, that don't hold us down. 
You need more money to operate, and we need to come up with 
policies that will allow the people who fund this wonderful 
government--and that is a private sector--allow them to grow, 
allow them to succeed, allow them to be profitable, allow them 
to be a bigger participant when it comes to revenue. And you 
only do that through working toward a mutual end that is 
beneficial for everybody.
    I have no questions for you because you are all on the 
right track. The question is, who is going to pay for it? And 
the answer is the labor force. We have more people working. 
That is where it comes from. It is not a mystery. The money 
does not come from the government. It comes from working people 
who pay taxes. We collect it, and then we redistribute it.
    Chairman, thank you for having this.
    Mr. Becerra, I agree with you. Listen, if we can't fix 
this, shame on us. The big thing we have to fix first is our 
tax system and regulation system because the people who provide 
all the revenue are the people that we whip every day. We whip 
them every day, and we hold them responsible for not paying 
their fair share, and then we make it impossible for them to 
win. That just doesn't make sense to me, not from the world I 
come from.
    Thank you, Mr. Chairman. I yield back.
    Chairman JOHNSON. Thank you.
    Mr. Renacci, you are recognized.
    Mr. RENACCI. Thank you, Mr. Chairman.
    I want to thank you for holding this hearing to further 
understand the Social Security Administration's IT 
infrastructure. I also want to thank the panel for their 
testimony, especially Mr. Warsinskey, who I have had the 
opportunity to meet with in the past and discuss many of these 
issues that have been brought up today. Thank you for your 
service. Thank you for traveling here from Cleveland and for 
everything you do for northeast Ohio.
    I take great pride in the work that my office has done in 
Congress in helping northeast Ohioans access earned Social 
Security benefits. Oftentimes, I hear from constituents about 
the struggles they are having with the Social Security 
Administration and how long it takes for issues to be resolved. 
One example, Denise from Akron, Ohio, worked with my office for 
more than 6 months, had her claim resolved after spending 6 
months on her own working with the Social Security 
Administration on her case.
    It is clear that the IT infrastructure must be dramatically 
improved in order for the Social Security Administration to 
meet the needs of the American people. I was a businessowner as 
well for three decades before I came here. In your testimony, 
Mr. Warsinskey, you shared results from an SSA employee survey 
that showed how frustrated Social Security Administration 
employees are with the current system. It is clear the aging IT 
structure has not only reduced productivity but negatively 
impacted the services constituents receive.
    You know, it is interesting. Ultimately, frontline 
employees have to bear that burden. I saw the green screen, 
which I probably haven't seen since I was in college. And then 
you talked about COBOL, which I had to chuckle at. I remember 
COBOL. I remember dropping the cards on the floor and having to 
pick all the cards back up and having to reshuffle them to make 
the program work. So I hope the COBOL you are talking about 
isn't the same one I was working on back in college, or we 
really have some problems with Social Security. But I can tell 
you that has to be a problem in retaining high-quality 
employees.
    Mr. Warsinskey, can you tell me how that--tell me some of 
the instances? Are you having problems? Especially younger 
employees, what do they say when they see these screens in 
COBOL and things they have never probably even heard of?
    Mr. WARSINSKEY. It is interesting when we interview people 
that are starting out that we tell them that you only maybe 
know one-millionth of what you are going to learn, because you 
don't go to college to learn what you get trained in Social 
Security. We have a completely unique system that only we do. 
And when they start working, they say, ``This is so 
convoluted.'' It is very hard for them to really comprehend. 
They spend a couple years really just trying to understand all 
the screens because it is so inefficient and it takes so much 
time. It is frustrating. And I think we lose staff, and it does 
affect our morale, many of the new staff members coming in 
because they learned under a different system just in the way 
they train. We have issues with just doing online training now 
because we don't have the bandwidth, and we have to often 
download things overnight. But the kind of modern way we do 
training and go about our business is just not there. We are 
working in a very old system, and I think our staffs would 
relish seeing this kind of plan that hopefully will provide a 
great deal of hope for our agency and for our public in the 
next few years.
    Mr. RENACCI. I would agree. You mentioned something about 
the speeds declining, oftentimes outages throughout the workday 
that slow processes down. Do you have any measure of the amount 
of productivity hours that are lost due to all of that?
    Mr. WARSINSKEY. Well, in our surveys, we found that, on 
average, we are losing about 20 minutes per employee per day of 
productivity. Now that is throughout the day and that is 
everyone in the field offices. But I talk to people from all 
over the country, whether they work in a field office or in our 
headquarters or in the hearings offices or the payment centers, 
they all have the same frustration with the loss of time 
because their computers are slowing down, and they are just 
waiting. So that adds up. I mean, all that time costs money. 
And then you build all this infrastructure, as I say, with the 
buildings and everything else you pay for. All of that is 
supporting the staff. And it is not an efficient use of our tax 
dollars. And, you know, we could do a lot more with less if we 
could improve this.
    Mr. RENACCI. I think your last line was the most important 
one, and that is the one that I was getting at in the business 
world which I was in, and you heard Mr. Kelly. You know, 
infrastructure is important. And sometimes if you have the 
right infrastructure, you--I hate to say this--you gain 
productivity. You don't need many personnel. But one thing I 
have learned today and I keep hearing--and I think most of the 
Members here on the panel are agreeing--that your 
infrastructure needs to be changed. But what we need to do is 
make sure that we spend it properly, because it is taxpayer 
money, and that we come up with a plan that works for the long 
term, not the short term.
    And I would be willing to work in this group that Mr. 
Becerra talked about to come up together with a plan, working 
together, to say: Here is how much we are going to spend. Here 
is why we need it, which I have had to do all my life in the 
business world. They would come and say: I need to spend X 
amount of dollars on infrastructure.
    I said: Okay. Explain it to me. Tell me how long it is 
going to last. Tell me the--these are the kinds of things that 
would be important because we are spending taxpayer dollars, 
but there is definitely a need.
    So I thank all of you for your testimony.
    I yield back.
    Chairman JOHNSON. Mr. Rice, you are recognized.
    Mr. RICE. Thank you, Mr. Chairman.
    I want to start out with you, Mr. Hayes. Why is it so hard? 
I mean, I know there are a lot of records, but it is not like 
we are using this computer system to design a rocket ship or 
something. We are just keeping records, right? This is a 
database, right?
    Mr. HAYES. The demands on how the data are used do evolve 
rather rapidly, and the ability to try to keep up with the 
operational use of the software systems can be very 
challenging.
    Mr. RICE. What you are saying is to replace it and keep the 
old one running at the same time is what makes it hard? Is that 
what you are saying? I mean, this is a database program.
    Mr. HAYES. Database structures have evolved. The technology 
that allows us to quickly access data, especially as the volume 
of data grows, the new technologies don't tend to work on old 
platforms, because those old platforms didn't have in mind----
    Mr. RICE. But you can convert it.
    Mr. HAYES. Yes, you can.
    Mr. RICE. I don't understand why this is so difficult. Is 
it that the people running it are incompetent and cannot get it 
done? Is that the problem?
    Mr. HAYES. Certainly not. It has been my experience, most 
people who have jobs like these do this out of a sense of 
loyalty to the mission they serve. So they are working as hard 
as they are able to in the structure they are working. This is 
for many men and women in uniform that defend our country as 
well as those working in the offices you have heard described 
today.
    Mr. RICE. Well, certainly, we want to make sure the men and 
women in uniform are well taken care of and that the American 
public is, but we hear this threat that if we don't do 
something about this thing and get it modernized, then we can 
have disruptions in service, and it affects a lot of our GDP, 
what Social Security deals with every month.
    What I am frustrated with is sitting here reading these 
reports, in particular yours, Ms. Byrd, about the fact that we 
have spent $300 million here and $280 million here, and we are 
still using COBOL, for God's sake.
    Mr.--I don't know how you say your name. Warsinskey or----
    Mr. WARSINSKEY. Warsinskey.
    Mr. RICE. How long have you been at Social Security?
    Mr. WARSINSKEY. A little over 40 years.
    Mr. RICE. Four years?
    Mr. WARSINSKEY. Forty years. I have seen a lot of change.
    Mr. RICE. You are still using COBOL? You haven't seen that 
much change. You are still using COBOL, for God's sake.
    Mr. WARSINSKEY. When I first started, we just had teletype 
machines, and we didn't even have dumb terminals.
    Mr. RICE. Maybe we should go back to abacuses. I mean, I 
guess maybe there is some advantage to using COBOL, because 
probably the hackers out today, they probably don't know how to 
hack into it because they have never seen such antiquated 
stuff.
    What is your position there?
    Mr. WARSINSKEY. What is my position?
    Mr. RICE. Yes.
    Mr. WARSINSKEY. I am the District Manager in downtown 
Cleveland. And I am also--that is my regular job. I am also 
President of the Social Security Management Association, but my 
regular job is I manage every day. I work with my staff. I 
hire----
    Mr. RICE. Okay. So you are not over IT?
    Ms. Melvin, you are, right?
    What is your position, Ms. Melvin?
    Ms. MELVIN. I would point to some underlying management 
problems.
    Mr. RICE. What is your position, Ms. Melvin?
    Ms. MELVIN. I would point to some underlying management 
problems. We have noted over time----
    Mr. RICE. What is your job, Ms. Melvin?
    Ms. MELVIN. What is my job?
    Mr. RICE. Yes.
    Ms. MELVIN. I am the Director for Information Technology 
within----
    Mr. RICE. So you are over IT?
    Ms. MELVIN. Yes, I do look at IT issues. We audit them.
    Mr. BECERRA. Do you look at IT issues within GAO?
    Ms. MELVIN. Yes, within GAO. I am not with SSA.
    Mr. RICE. Okay. So you don't control this, but you do, sir. 
How long have you been with Social Security?
    Mr. KLOPP. Eighteen months.
    Mr. RICE. Are you not embarrassed about using COBOL? I 
mean, good grief.
    Mr. KLOPP. I am not embarrassed. I take it as a challenge, 
and it is my job to try to fix it, which is why I'm here.
    Mr. RICE. Why is it so hard? It is not like we are asking 
for these incredibly advanced systems. This is a database 
system.
    Mr. KLOPP. I think, first off, it is more than a database. 
We make decisions about who gets disability from the data. We 
make decisions about who gets SSI. There is a lot of complexity 
in there. It is much more than just a database system.
    Mr. RICE. Now, the COBOL system, that is the primary 
database, right? And that is the central function, right? COBOL 
is the foundation on which this whole database is built, right?
    Mr. KLOPP. COBOL is the business logic. The database itself 
is actually called DB2. COBOL is where we put the business 
logic. DB2 is where we put the data.
    Mr. RICE. We have heard about these problems modernizing 
computer systems, not just from all of you but from the IRS and 
I think other governmental entities as well. Why is it so much 
harder in government to modernize than it is in the private 
sector? Why is that so much more difficult?
    Mr. KLOPP. I think that there are two answers to that. One 
is--it is very interesting. There are some commercial 
industries, in particular the insurance industry, which is a 
close analogy to SSA anyway, that basically is not modernizing. 
They are sticking with COBOL, and they insist they are going to 
stick with COBOL. I find that to be a very odd stance. But 
there are several large insurance companies that are not 
modernizing. They are going to try to stick with what they 
have.
    I think that the issue comes back to funding. And I think 
you guys are spot on when you talk about, how do you fund this? 
How do you get return on investment? How do we demonstrate that 
there is a return on investment? I think what you are hearing 
from everybody today is that we know there is return on 
investment. The question is, where do we come up with the 
investment?
    Mr. RICE. Okay. I just have--Ms. Byrd, you noted that we 
just spent $300 million on this DCPS with very little in 
return. Please tell me that the people who oversaw that are not 
going to oversee this, please tell me that those people are 
not--no longer with Social Security, please.
    Ms. BYRD. Mr. Klopp is new, and he has a new team 
supervising DCPS. And they have, in resetting the program, they 
created a single owner, which was one of the recommendations. 
So the original folks are not really involved.
    Mr. RICE. But they are still there.
    Ms. BYRD. They are still there. I don't really know. I 
can't speak to every single person.
    Mr. RICE. Do we hold people accountable for $300 million 
failures? I am just curious.
    Ms. BYRD. In the IG world, we certainly report that and are 
very concerned about that. As far as what SSA management does, 
I can't speak to that.
    Mr. RICE. I yield.
    Thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you.
    Mr. Dold, you are recognized.
    Mr. DOLD. Thank you, Mr. Chairman.
    I appreciate it and apologize for being late but certainly 
appreciate you taking your time. I would like to follow up on 
some similar questions, because I think this is the thing that 
has people scratching their heads asking, ``What in the 
world?''
    Mr. Klopp, you have been with the Social Security 
Administration for 18 months. Where were you before that?
    Mr. KLOPP. I am sort of a Silicon Valley guy. I bounced 
around in some of the start-up and technology companies all 
over.
    Mr. DOLD. Perfect. So let's put your private sector hat on 
and let's consider this a board meeting. We understand how 
important Social Security is. It is absolutely vital. And the 
fact that we are looking at a database here that is basically 
out of date. We are still working on COBOL. And if we sat 
around a board of director's meeting here and you spent $300 
million to be where we are today, what do you think a board 
would do based on the results that have been produced thus far?
    Mr. KLOPP. In regard to the previous project where $300 
million was spent and we didn't get much out of it, I believe 
the board would be very unhappy, and there would be some heads 
that would roll.
    Mr. DOLD. I find it also interesting that, as of just a 
week before this hearing, we hadn't received more than about 
three slides on what the plan of attack is going forward for 
this. And so I am just wondering in terms of the detailed plan 
going forward--and I recognize you have a monumental task in 
front of you. So please hear me: We want to be wildly 
successful. I just want to make sure that we are giving you the 
tools to be successful, because we can't be back here going 
through another hearing like this after wasting taxpayer 
dollars to come up with something that is not going to be 
functional.
    Tell me about the plan. Is it adequate?
    Mr. KLOPP. Sir, I believe that it is adequate. I mean, 
there is a lot behind the plan. The fact is the plan is 20 
pages. I think as I mentioned earlier, we have briefed your 
staff multiple times, so as the plan evolved, they have been 
briefed on it as it evolved. There is not very much in the plan 
that we had not briefed your staff on. As it evolved, with the 
exception of the financial models--and by the way, I probably 
owe them a briefing to walk through in detail exactly how we 
came up with those financials and to help them share the 
confidence that I share that the financials we put together are 
actually accurate and supportable. I think we are there, I do 
believe it.
    Mr. DOLD. Well, that is certainly good news. So, in your 
estimation, how long is it going to take to implement so that 
we can actually have an updated system over at the Social 
Security Administration?
    Mr. KLOPP. Using these Agile methods, what we believe is 
that, in each of the five areas that I talked about--title II 
and title XVI, et cetera--we are going to be able to work to 
deploy some parts of the system in production in pretty short 
order once we get funded and get started, where the definition 
of short order is it should not exceed a year. I will tell you 
the users have something to say about when we have built enough 
stuff to be sufficient to actually roll in production. So this 
part of--Agile is I can't say exactly when I roll the first bit 
in production. But our experience with the restart of DCPS is 
that we should be able to roll significant functionality, 
modern functionality, into production in the agency within a 
year of starting.
    Mr. DOLD. The team that was responsible before that is 
apparently still over at the Social Security Administration 
that didn't produce the system and the team that you are 
assembling, do you have the team that you need, or is it still 
some of the folks that didn't get the job done the last time 
that you are relying upon?
    Mr. KLOPP. It's interesting, the last time we did this, for 
reasons that are historical and go so far back before my time I 
actually don't even--I haven't heard the stories, right, 
because it goes back to 2008. The decisions in 2008 were made 
that this system would not be built by SSA's systems 
department. This was built completely by contractors, and it 
was managed more directly by the business than by systems. That 
doesn't say that we weren't, you know--we knew what was going 
on, and we provided a little bit of financial oversight and 
stuff like that. So I wouldn't sit here and say that we had no 
skin in the game, but we were not the primary drivers in that 
system. So what we are now doing is driving this new plan 
through SSA's systems organization. It is fundamentally 
different people.
    Mr. DOLD. Okay. I'm delighted to hear that.
    Ms. Byrd and Ms. Melvin, just turning to you for a second. 
Both your organizations have conducted some pretty extensive 
oversight in the area of the IT modernization. How important is 
it in your estimation for the SSA to have a detailed plan in 
place? Is the plan that has been provided sufficient, in your 
estimation?
    Ms. BYRD. We only received the plan 2 days ago. Mr. Klopp 
was very kind to brief my staff for a couple of hours last 
evening. I can't really opine on the adequacy of the plan. We 
will be happy to take a deeper dive and get with you at a later 
date.
    As far as the importance of this, the OIG has gone back 
many, many years recommending that these changes be made, that 
the 60 million lines of COBOL be modernized. So we clearly 
believe that we are at a critical point. Technology changes 
every single day, so we can't wait for--we have people 
retiring. We have a new generation coming in, so it is 
imperative in our opinion.
    Ms. MELVIN. From my perspective, also, we only recently saw 
the plan, so I can only speak preliminarily. Based on what I am 
seeing, I would certainly have questions about the content and 
what exists behind the slides that we have all spoken to today. 
When I speak in particular about the cost estimation, I think 
there are some important questions to be asked there relative 
to what information and analysis is underlying the cost figure 
that is included in the plan.
    The GAO cost estimation guide identifies a number of 
characteristics of what we call comprehensive, well-documented, 
accurate and credible cost estimations. So, from our 
perspective, it would be extremely important to know more about 
what exactly supports the figures that are being presented in 
this plan, how they are justified, and what analysis is there 
to support that.
    Mr. DOLD. Thank you. My time has expired. But let me just 
close by saying we need you to get this right, and we want you 
to be successful. The country is counting upon it.
    I yield back.
    Chairman JOHNSON. Thank you.
    And listen, I appreciate all of you testifying today. Keep 
up the good work. It seems like it is a never-ending problem to 
fix this. You know, we built two new facilities with four 
systems, and it seems like we should have gotten it fixed then, 
but we didn't. So I just want to thank all of you for your 
testimony and thank the Member that is left.
    Mr. BECERRA. Mr. Chairman, may I add something before you 
close?
    Chairman JOHNSON. Yes.
    Mr. BECERRA. I think we are beginning to recognize how 
important it is to try to be with them as we try to stay on top 
of them. Those two centers that were built, my understanding is 
they were hardware. They gave you more infrastructure capacity, 
but your issues are more software and the interconnectivity and 
all the issues that come with making use of the better hardware 
you have. And COBOL and all that, that is software. What we 
have to do is make sure that they now complement what you have 
now in your hardware with up-to-speed, up-to-date software. It 
can be pretty tricky and complex. I think that is where it is 
going to be really important that you have eyes from outside of 
this system watching you as well.
    Mr. Chairman, I think this is clearly one of those areas if 
we just sort of stay on top of it ourselves, we will have a 
greater comfort level about where to go with this proposal they 
have put forward.
    Chairman JOHNSON. Social Security's aging and outdated IT 
is a real problem. So I think it is time to fix the systems, 
and I appreciate you all taking the effort to get it done.
    Social Security has to get it right the first time, because 
we can't keep throwing money at it. The American people deserve 
no less. I thank each and every one of you for being here and 
for helping resolve this problem. Thank you so much.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]
    [Questions for the Record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

    [Submissions for the Record follow:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   


                                 <all>
</pre></body></html>
